     Peace Corps
     Office of Inspector General
 




    Final Program Evaluation Report:
           Peace Corps/Belize

                                 August 2009
Final Program Evaluation Report:
        Peace Corps/Belize
                    IG-09-14-E




        ______________________________________________


                  Susan Gasper
Acting Assistant Inspector General for Evaluations




                    August 2009
                           EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an evaluation of Peace Corps/Belize
operations from March 3 - 20, 2009. The evaluation covered fiscal years 2007 through
February 2009, and reviewed programming, training, Volunteer support, health care,
Volunteer safety, housing, work sites, and staff organization.

At the onset of our evaluation, there were 67 Volunteers and 18 staff in Belize. Personal
interviews were conducted with 16 Volunteers (24% of Volunteers) and with 13 in-
country staff (72% of staff). Additional interviews were conducted with Peace Corps
headquarters staff, U.S. Embassy representatives in Belize, and key project partners.
PC/Belize has four projects: (1) Youth Development; (2) Education; (3) Business; and (4)
Health.

PC/Belize has been successfully placing Volunteers in Belizean communities since 1962.
The OIG evaluation determined that the post has an experienced and dedicated staff and
strong and effective leadership. PC/Belize enjoys a renewed sense of enthusiasm and
commitment to the Peace Corps mission following a period of low morale. Peace Corps
has an excellent reputation in Belize and the post has developed positive working
relationships with a large number of project partners. PC/Belize and U.S. Embassy staff
collaborate effectively on security issues and post communicates well with
PC/headquarters offices. PC/Belize has established effective operational systems related
to programming and training and most aspects of Volunteer support.

In addition to identifying successful systems and initiatives, we determined that the
following areas inhibit the efficiency and effectiveness of PC/Belize:

   o Fewer than half the Volunteers interviewed for this evaluation were working
     successfully with their assigned counterparts.
   o The post could improve the alignment of Volunteer and counterpart work
     expectations by establishing more realistic expectations for incoming Volunteers
     and new counterparts.
   o Although English is the official language of Belize, the community integration of
     many rural Volunteers is limited by poor local language skills.
   o Volunteers reported dissatisfaction with the quality of site visits.
   o Volunteers reported dissatisfaction with the quality of biannual report feedback.
   o The medical support of Volunteers has been negatively impacted by the Peace
     Corps Medical Officer’s (PCMO) training obligations. In addition, Volunteers
     report inconsistencies with the distribution of medications.

Our report contains 15 recommendations, which, if implemented, should strengthen
programming operations and increase the post’s compliance with Peace Corps policies.




Final Program Evaluation Report: Peace Corps/Belize                                      i
                                                             Table of Contents


EXECUTIVE SUMMARY ................................................................................................. i

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 2

EVALUATION RESULTS ................................................................................................ 3
PROGRAMMING ............................................................................................................................................... 3

CROSS-CULTURAL UNDERSTANDING .............................................................................................................. 7

TRAINING ........................................................................................................................................................ 7

VOLUNTEER SUPPORT ..................................................................................................................................... 9

MANAGEMENT CONTROLS ............................................................................................................................ 14

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) ................................................................... 16


POST STAFFING............................................................................................................. 17

INTERVIEWS CONDUCTED ........................................................................................ 18

LIST OF RECOMMENDATIONS .................................................................................. 19

APPENDIX A: MANAGEMENTS RESPONSE

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                          HOST COUNTRY BACKGROUND
Belize was the site of several Mayan city states until their decline at the end of the first
millennium A.D. The British and Spanish disputed the region in the 17th and 18th
centuries; it formally became the colony of British Honduras in 1854. 1 Territorial
disputes between the United Kingdom and Guatemala delayed the independence of
Belize until 1981. Guatemala did not recognize the new nation until 1992. Tourism has
become the mainstay of the economy. Current concerns include an unsustainable foreign
debt, high unemployment, increasing involvement in the South American drug trade,
growing urban crime, and increasing incidences of HIV/AIDS.


                  PEACE CORPS PROGRAM BACKGROUND

Peace Corps began working in Belize in 1962 and has operated continuously since that
time. Nearly 1,800 Volunteers have served in Belize. At the time of this evaluation there
were 67 Volunteers serving in the following four projects:

      • Youth Development
      Project partners for this sector include the Ministry of Education, National 4-H Youth
      Development Center, and a number of non-governmental organizations (NGOs).
      Volunteers work with youth organizations and agencies to develop and manage
      programs that generate opportunities for social, recreational, and health activities for
      youths. Volunteers work with youth to develop their job readiness skills and
      empower them to make healthy life decisions.

      • Education
      The Ministry of Education is the primary project partner for this project. Volunteers
      work to meet literacy and teacher training goals. Volunteer activities focus on
      building the capacity of teachers and administrators. The three main areas of focus
      are teacher education and training, early childhood education and development, and
      special education.

      • Business and Organizational Management
      Project partners in this sector include the National Association of Village Councils
      and a range of NGOs and community based organizations. Volunteer activities focus
      on business and organizational management capacity building in rural areas and
      strengthening the leadership and planning skills of local village councils.

      • Healthy Communities
      Project partners include the ministries of Health, Education, and Human
      Development, the National Association of Village Councils, and a consortium of


1
    In 1973, the country’s name was changed from British Honduras to Belize.


Final Program Evaluation Report: Peace Corps/Belize                                           1
       agencies in the Toledo district. 2 Volunteers assist rural families – primarily Mayan
       communities – in Belize’s poorest districts. Volunteer activities focus on the
       promotion of proper hygiene and nutrition, health worker capacity building and
       sanitation education programs with families, schools, and communities.



                 OBJECTIVES, SCOPE, AND METHODOLOGY

The mission of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote effectiveness and efficiency in
government. In February 1989, the Peace Corps/OIG was established under the Inspector
General Act of 1978, as amended, and is an independent entity within the Peace Corps.
The Inspector General (IG) is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps Office of Inspector General provides the
agency with independent evaluations of all management and operations of the Peace
Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.

For post evaluations we use the following researchable questions to guide our work:
•      To what extent has the post developed and implemented programs intended to
       increase the capacity of host country communities to meet their own technical needs?
•      To what extent has the post implemented programs to promote cross-cultural
       understanding?
•      To what extent does training provide Volunteers the necessary knowledge, skills, and
       attitudes to integrate into the community and perform their jobs?
•      To what extent has the post provided adequate support and oversight to Volunteers?
•      To what extent are post resources and agency support and oversight effectively
       aligned with the post's mission and program, and agency priorities?
•      To what extent is the post able to adequately administer the PEPFAR program,
       support Volunteers, and meet its PEPFAR objectives?

The Office of Inspector General Evaluation Unit announced its intent to conduct an
evaluation of PC/Belize on January 9, 2009. The evaluator conducted the preliminary
research portion of the evaluation January 19, 2009 – February 27, 2009. This included
review of agency documents provided by headquarters and post staff, and interviews with
management staff representing the region and the Office for Overseas Programming and
Training Support (OPATS). In-country fieldwork occurred March 3 – 20, 2009, and was
comprised of interviews with post staff in charge of programming, training, and support;
the acting U.S. Ambassador; the Regional Security Officer; and project partners. In


2
    Toledo district is the poorest district in Belize.


Final Program Evaluation Report: Peace Corps/Belize                                            2
addition, we interviewed a stratified judgmental sample of 24% of currently serving
Volunteers based on their length of service, site location, project sector, gender, age, and
ethnicity. Fourteen Volunteers were identified as part of the sample before the fieldwork
commenced and two Volunteers were added to the sample during the course of fieldwork.

     Table 1: Volunteer Demographic Data
                          Project                            Percentage of Volunteers
      Youth Development                                               43%
      Education                                                       25%
      Business & Organizational Management                             6%
      Healthy Communities                                             25%
                     Gender                                  Percentage of Volunteers
      Male                                                            38%
      Female                                                          62%
                       Age                                   Percentage of Volunteers
      25 or younger                                                   25%
      26-29                                                           31%
      30-49                                                           18%
      50 and over                                                     25%
     Source: PC/Belize Volunteer Roster, January 2009.
     Note: Percentages may not total 100% due to rounding.



Thirteen of 16 Volunteer interviews occurred at the Volunteers’ homes and we inspected
these homes using post-defined housing criteria. Their homes all met the specified
housing criteria. The period of review for a post evaluation is one full Volunteer cycle
(typically 27 months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency (CIGIE). The
findings and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.



                              EVALUATION RESULTS

PROGRAMMING

The evaluation assessed whether the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical
needs. To determine this, we analyzed the following:




Final Program Evaluation Report: Peace Corps/Belize                                       3
   •   The coordination between Peace Corps and the host country in determining
       development priorities and Peace Corps program areas.
   •   The existence of project plans based on host country development priorities and
       the Volunteers’ understanding of the project plan goals and objectives.
   •   Whether Volunteers are placed in sites where they can contribute meaningfully to
       meeting host country development priorities.
   •   Relationships with counterparts that enable Volunteers to have productive work
       assignments that meet host country development priorities.

Overall, Volunteers in Belize reported that they were satisfied with their projects and
believe that they were contributing meaningfully to host county needs. Nearly all of the
Volunteers interviewed for this evaluation reported that they were at least moderately
familiar with their project goals, and a majority of the Volunteers rated their familiarity
with project goals as “above average” or “very familiar.” Eighty-one percent of the
Volunteers responded favorably when asked how well their primary activities relate
to their project goals, and 75% of the Volunteers we interviewed reported that they were
satisfied with their job placement. Data from the 2008 Biennial Volunteer Survey (BVS)
indicated that Volunteers in Belize worked a greater percentage of hours on their primary
assignments than global averages.

The post completed its project plan revisions but the projects lack the support of Project
Advisory Committees.

A Project Advisory Committee (PAC) is a team of principal stakeholders whose goal is to
guide and support a project. The Peace Corps’s “Programming and Training Booklet 2”
describes the role of PACs as follows:

       APCDs [Associate Peace Corps Directors] and program managers have
       the major responsibility for designing or revising projects. This should be
       done in collaboration with host-country agency partners… If Volunteers
       are in the country, they can also be represented on the design teams. This
       [PAC] would share responsibility for research, design, assessment, and
       revision of the project. In the ideal situation, the advisory committee
       would provide support throughout the life of the project.

PC/Belize recently completed revisions to all four of its project plans, and OPATS
specialists have designated all four plans with “green” status, meaning all parts of the
project plans are clearly detailed and complete. Post staff reported that the project plan
revision process involved collaboration with staff, Volunteers and project partners. The
post has an opportunity to develop PACs for each project and maintain the involvement
of staff, Volunteers, and project partners in a project support role.

In interviews, programming staff expressed support for the development of PACs. We
concur that the development of PACs will retain acceptance from stakeholders and ensure
that programming meets host country development priorities.




Final Program Evaluation Report: Peace Corps/Belize                                          4
               We recommend:

               1. That the post establish Project Advisory Committees
                  for each project.


Many Volunteers reported that they were unable to develop a working relationship with
their assigned counterpart.

The site development process in Belize requires that a counterpart is identified at each
site and provided with orientation and training.

Fifty-six percent of the Volunteers interviewed for this evaluation report they have been
unable to develop a successful working relationship with the primary counterpart
assigned to them. Volunteers indicated a variety of problems with their counterparts and
there did not appear to be a principle cause to correct. However, the fact that so many
Volunteers did not work with their pre-selected counterparts represents a significant
inefficiency related to site development and training.

There did not appear to be a scarcity of viable counterparts in Belize. Most of the
Volunteers who reported problems with their assigned counterparts had successfully
identified new counterparts and project partners to work with. Overall, 81% of the
Volunteers interviewed for this evaluation met with a counterpart regularly and
characterized their working relationship positively.

The post could increase the effectiveness of site development and counterpart training by
improving the initial selection of counterparts.


               We recommend:

               2. That the post conduct a survey to identify the roles
                  and traits of a productive counterpart and develop
                  counterpart selection criteria.


Volunteers and project partners had different expectations about Volunteers’ roles in
the workplace.

Volunteers, programming staff, and project partners all reported that Volunteer and
project partner work expectations were out of alignment. Eight project partners were
interviewed for this evaluation and six of them reported that Volunteers did not initially
meet their work expectations. The project partners reported that Volunteers disregard
workplace practices such as keeping regular office hours and attending staff meetings. In
a typical comment, one project partner stated:




Final Program Evaluation Report: Peace Corps/Belize                                        5
       We try to make Volunteers part of our staff. They work here with us.
       They should keep office hours, we have noticed that the staff register is
       not always signed by the Volunteer. Volunteers struggle with adjustments
       to the office setting.

Some of the project partners’ expectations were not aligned with the expectations that the
post has for Volunteers. For example, one project partner complained about a Volunteer
leaving work to attend a Peace Corps training.

The post could improve the alignment of Volunteer and counterpart expectations by
establishing more realistic expectations with incoming Volunteers and new counterparts.


               We recommend:

               3. That the post revise Volunteer Assignment
                  Descriptions and the Welcome Book to clarify
                  Volunteer work roles in the Belizean workplace.

               4. That the post revise counterpart training materials
                  to clarify Peace Corps’ expectations of Volunteers’
                  role in the Belizean workplace.


Some homestay housing did not meet the post’s housing criteria.

The post requires that during the first 8 - 12 weeks at site, Volunteers live and eat with a
pre-selected family and pay a rental fee pre-negotiated by the Associate Peace Corps
Director (APCD).

Thirty percent of the Volunteers interviewed for this evaluation reported they were
provided “very poor” living accommodations by their homestay families at site. Some
Volunteers reported a number of problems including poor sanitation conditions,
inadequate meals, and rooms that could not be locked, which is a housing requirement.
In addition, despite reported dissatisfactory conditions, Volunteers were required to pay a
rental fee that had been negotiated before their arrival.

PC/Belize leadership acknowledged that the short-term housing arrangement has proven
to be counterproductive and unpopular and have decided to change the policy.
Volunteers will no longer be required to live with a homestay family at site.

At the time of this evaluation staff were in discussions to develop a new housing policy.
Our recommendation is to develop a policy that will ensure that the post’s housing
criteria are met.




Final Program Evaluation Report: Peace Corps/Belize                                            6
               We recommend:

               5. That the post develop a policy that will ensure that
                  the post’s housing criteria are met.


CROSS-CULTURAL UNDERSTANDING

The second objective of a post evaluation assesses whether Peace Corps programs in a
given country help promote a better understanding of Americans on the part of the people
served. Cultural exchange is an integral part of the transfer of knowledge and skills that
occurs between host-country community partners and Volunteers. To understand the
extent to which the post has implemented programs and activities to promote cross-
cultural understanding, we interviewed Volunteers, post staff, and project partners and
reviewed training and evaluation materials. In reviewing PC/Belize Volunteers’ cross-
cultural understanding, the OIG found that language learning is the only cross-cultural
challenge that was consistently mentioned by Volunteers, region staff, post staff, and
OPATS specialists. This challenge is addressed in the Training section of this report.

There were no other significant areas of concern that would warrant action by the post.
Volunteers reported that they are well-integrated in their communities; 94% of
Volunteers interviewed for this evaluation rated themselves as having “average success,”
“above average success” or being “very successful” in understanding cross-cultural
issues, with an average rating of 3.6 on a 5-point scale (1 = unsuccessful, 5 = very
successful). The 2008 Biennial Volunteer Survey indicated that Volunteers in Belize felt
slightly more integrated in their communities than global averages and experienced
significantly lower levels of stress and emotional health issues caused by cultural issues.

TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:

   •   The existence of training goals, competencies, and learning objectives that help a
       post understand the skills Volunteers need.
   •   The types of training Trainees and Volunteers receive, the topics covered during
       those training sessions, and whether training targets were met.
   •   The feedback on the effectiveness of training in providing the skills and
       knowledge needed for Volunteer assignments and success.

In reviewing PC/Belize’s training goals, competencies, and learning objectives, the OIG
found that PC/Belize has implemented a competency-based training model and
established core and sector competencies.



Final Program Evaluation Report: Peace Corps/Belize                                         7
PC/Belize implemented a community-based training (CBT) model for pre-service
Training (PST) in 2007 and the post will hold its third such training in August 2009.
Under the CBT model, Trainees live with a host family that uses the language prevalent
at their site.

All learning objectives were met in the last PST completed in October 2008.

Most Volunteers reported that language training was not effective.

Fifty-three percent of the Volunteers interviewed for this evaluation reported that
language training was “ineffective” or “below average.” Volunteers similarly reported in
the 2008 Biennial Volunteer Survey that they were significantly less satisfied with the
effectiveness of language training than global averages.

Table 2: Volunteer Perceptions of PST Effectiveness
 PST Training Area Ineffective/Below         Moderate/Above                    Average
                           Average        average/Very effective               rating*
 Language¹                  53%                    47%                           2.5
 Culture²                    7%                    93%                           3.5
 Safety & Security¹          0%                   100%                           4.0
 Medical & Health¹           7%                    93%                           3.7
 Technical¹                 20%                    80%                           3.3
Source: OIG Volunteer Interviews, 2009.
* On a five-point scale, 1= ineffective and 5 = very effective.
¹N=15, ²N=14


The PC/Belize programming and training team are aware of language training
inadequacies and pointed to the following causes for the low effectiveness of language
training during the 2008 PST: 1) the Trainee input moved from June to August and
required the post to hire a cadre of new and inexperienced language trainers; 2) language
training was broadened to five languages which required a complex training model; 3)
the lesson plans did not contain strategies to accommodate multi-level learning; and 4)
the language manuals had not been used before and were in need of revision. The
PC/Belize programming and training team reported plans to improve the language
training for the 2009 input.

PC/Belize staff report that most Volunteers can function well at their sites without
intensive language training because English is the official language of Belize. However,
staff also reported that language learning was important for integration and security
purposes, particularly in rural communities. Most Belizeans grow up speaking one of
five local languages and learn English as a second language. Those local languages are
Spanish, Kriol, Garifuna, Maya Mopan, and Kekchi.

Twenty-five percent of the Volunteers interviewed for this evaluation reported that their
lack of local language skills is a barrier to community integration. These Volunteers
were all located in rural sites in the Toledo district. In addition to plans to improve PST,


Final Program Evaluation Report: Peace Corps/Belize                                            8
the post reported plans to increase support for language self-learning and tutoring after
PST for Volunteers located in more rural sites.


               We recommend:

               6. That the post increase support to rural Volunteers
                  for language self-learning and tutoring.


VOLUNTEER SUPPORT

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, the evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), and the handling of crime incidences; and the
adequacy of the Volunteer living allowance.

All Volunteers interviewed for this evaluation reported favorably when asked how well
the living allowance permits them to maintain a safe and healthy lifestyle. The average
response was 4.4 on a 5-point scale (1 = not at all, 5 = very well).

All of the Volunteers interviewed for this evaluation had a favorable rating of safety and
security support, with an average rating of 4.5 on a 5-point scale (1 = not at all supported,
5 = very well supported). All of the Volunteers who had experienced a crime reported
they were satisfied with Peace Corps’s handling of the situation. Additionally, all of the
Volunteers interviewed stated that they would report a future crime to Peace Corps.
Ninety-four percent of the Volunteers interviewed were at least moderately familiar with
the post’s EAP and 88% could locate a copy of the EAP in their homes. The SSC
reported that during the most recent EAP activation in March 2009, issued due to
municipal elections, all Volunteers were contacted within 15 hours, well under the SSC’s
reported target of 32 hours.

The SSC has developed a comprehensive contingency plan in response to a missing
bridge along the main road that connects the north and south of the country. While the
bridge is out, Volunteers in southern Belize are potentially cut off from the PC/Belize
office and consolidation points in Belmopan during rainy weather, particularly during the
hurricane season. The contingency plan has been added to the EAP.




Final Program Evaluation Report: Peace Corps/Belize                                         9
Some Volunteers homes cannot be readily located using the Site Locator Forms on file
with the post.

According to Peace Corps’s “Indicators of a High Performance Post”, Indicator 11.2:

       Volunteers should fill out such a [emergency site locator form] the first
       time they go to post and should keep updating them regularly for two
       years, as should staff every time they visit the Volunteer’s site.

The PC/Belize Volunteer Handbook states:
       Volunteers are required to update their emergency contact information
       using a Site Locator Form whenever changes occur or when they have
       additional contact information to add (e.g., a new personal e-mail address
       and/or a radio frequency).

As part of this evaluation, the OIG reviewed 14 Site Locator Forms (SLFs) of 16
Volunteers in the interview sample. Two of the 14 Volunteers had moved and their SLF
information was no longer valid. One Volunteer was not interviewed at site and two of
the interviewed Volunteers are a married couple and share the same SLF. Of the other 12
SLFs reviewed, the evaluator had difficulty locating six of the Volunteers’ homes using
only the maps and directions in the SLFs. Often the details in the maps and directions
were not sufficient to lead someone who is not familiar with the area to the Volunteer’s
house, which may occur during an emergency. None of the SLFs were signed by staff
and it was not evident that staff had reviewed the SLFs.

The SSC acknowledged a shortfall with reviewing the SLFs and reported plans to train
the new programming and training specialists to review the SLFs along with the housing
checklists.


                       We recommend:

                       7. That the country director ensure that post
                          staff routinely review the accuracy of the Site
                          Locator Forms.


Volunteers reported being least satisfied with support from programming staff.

Volunteers are significantly less satisfied with the support they receive in programming
than other areas, with only 63% of the Volunteers interviewed rating the support
favorably.

Volunteers rated the effectiveness of staff to help them adjust to Peace Corps service at
4.1 on a 5-point scale (1 = not at all, 5 = very well). The average ratings for staff on a
five-point scale are as shown in Table 3.


Final Program Evaluation Report: Peace Corps/Belize                                          10
Table 3: Responses on Perception of Volunteer Support
                         % of Volunteers rating
   Area of Support                                                           Average rating
                       “average support” or better
 Leadership                        93%                                               4.5
 Programming                      63%                                                3.1
 Training                         100%                                               4.4
 Safety & Security                100%                                               4.5
 Medical                           81%                                               3.6
 Administrative                   100%                                               4.3
Source: The Leadership score was derived from the score for the country director and programming and
training officer; the Programming score was derived by averaging the scores for the APCDs; the Training
score was derived from the score for the training director; the Safety and Security score was derived from
the score for the safety and security coordinator; the Medical score was derived from the score for the
Peace Corps Medical Officer score; the Administrative score was derived from the score for the
administrative officer.



In interviews, both APCDs reported that high volumes of work have presented a
considerable challenge to providing sufficient support to Volunteers.

Post and region leadership acknowledged in interviews that the size of the program in
Belize warranted additional programming support staff. A programming and training
specialist (PTS) joined the post in November 2008, and during the field work portion of
this evaluation, the post was given approval to hire a second PTS.

The addition of two programming support staff should allow for a more reasonable
distribution of work and the post should expect Volunteer satisfaction levels with
programming support to increase.

Some Volunteers reported dissatisfaction with the quality of site visits.

According to the PC/Belize Volunteer Handbook and Policy Manual, the guidelines for
APCD site visits include the following:

    •     Each site visit must have an adequate period where the staff member meets
          privately with the Volunteer to listen to concerns, give and receive feedback.
    •     The site visit should also incorporate a meeting with the Volunteer’s
          counterpart. This provides an opportunity to assess performance, attendance
          problems, address any communication issues, problem-solve as necessary, and
          demonstrate institutional support for the Volunteer.
    •     The site visit should give the staff member the opportunity to observe the
          Volunteer in his/her working environment. The Volunteer is encouraged to plan
          a work event so that Staff is able to take advantage of this opportunity.

Eighty-eight percent of the Volunteers interviewed for this evaluation were satisfied with
the number of site visits they received but 69% raised issues with the quality of site visits.



Final Program Evaluation Report: Peace Corps/Belize                                                      11
Many Volunteers reported that they did not understand the purpose of their site visit.
Some typical Volunteer comments included:

        “I’m not really sure what [site visits] are supposed to do. Don't know
        what they were supposed to accomplish.”

        “The first one was pointless since we'd just gotten there and hadn't done
        any work yet.”

        “It was just a list of questions they wanted me to answer but there was no
        support after that.”

        “I feel like [the APCD] is just checking up on us. I don't feel like they are
        really coming here to support us.”

The comments from Volunteers made it clear that there was confusion regarding the
purpose of the site visits, particularly the initial site visits. In addition, several Volunteers
reported a lack of familiarity with their APCDs as an impediment to site visit
effectiveness. Comments included:

        “[My APCD] did not develop a relationship with me. Our APCDs should
        have gotten to know us during training.”

        “Through CBT I never saw my APCD. I never built a relationship. No
        trust is formed. We formulated a relationship after I was placed at site.”

The PC/Belize Volunteer Handbook lists several site visit guidelines, including: “Staff
should advise Volunteers as far as possible in advance. Volunteers should prepare for the
visit based on Staff and Volunteer expectations.”

Programming staff can improve the effectiveness of site visits by notifying Volunteers in
advance and establishing expectations for the site visit.


                We recommend:

                8. That the post align Volunteer and staff expectations
                   regarding site visits.

                9. That programming staff notify Volunteers in
                   advance of site visits.

                10. That APCDs develop a working relationship with
                    Trainees during PST.




Final Program Evaluation Report: Peace Corps/Belize                                           12
Volunteers reported that biannual report feedback was not useful.

The PC/Belize Volunteer Handbook states: “You will submit the Biannual Report to your
APCD every six months during your service…Your APCD will also provide written or
verbal feedback on your report.”

When asked in interviews about the quality of their biannual report feedback, seven
Volunteers gave an average rating of 2.8 on a 5-point scale (1 = not at all, 5 = very well).
Volunteers commented that the feedback was too brief and there were not enough
constructive remarks. The nine first year Volunteers in our interview sample did not
comment as they had not yet submitted a biannual report.

Additionally, the percent of Volunteers in Belize who were satisfied with feedback on
their project activities was less than half the global average as reported in the 2008
Biennial Volunteer Survey (BVS).

In interviews, both APCDs expressed confidence that the quality of biannual report
feedback would improve during the next reporting cycle. As stated above, the recent
addition of two PTS staff should allow more time for the APCDs to improve
programming support in this area.

Volunteers’ dissatisfaction with their biannual report feedback could negatively impact
their field work and reduce the quality of performance reporting.


               We recommend:

               11. That the programming and training officer monitor
                   Volunteers’ satisfaction with the timing and quality
                   of biannual report feedback.


Volunteers reported dissatisfaction with the distribution of medication and were
reluctant to contact the PCMO.

Five of the 16 Volunteers interviewed for this evaluation reported that they either did not
receive medication that they had requested from the PCMO or that they did not receive
the correct medication. Three of these Volunteers reported that they received the correct
medication after one or two reminders.

Seven of the 16 Volunteers interviewed for this evaluation report told us that they were
reluctant to contact the PCMO. Some of the reasons Volunteers gave for their reluctance
included:

       “I almost feel guilty about calling her…like I'm asking her to do a favor.”




Final Program Evaluation Report: Peace Corps/Belize                                       13
       “I feel that [the PCMO] will tell us that she's available but sometimes I
       feel …like we are bothering her.”

       “She's really nice but she seems too busy sometimes.”

The cause of Volunteer’s reluctance appears to be two-fold. The country director
reported in an interview that the PCMO has a very direct manner that could be a cross-
cultural issue. In addition, the PCMO experiences periods of increased work activity.

The PCMO reported in an interview that she has no difficulty managing her work except
during training, particularly when PST overlaps with close of service (COS). The final
training report for the most recent PST acknowledged that the PCMO is strained during
training:

       To better support the PCMO, we can consider contracting [a doctor] to be
       present on the Fridays that the PCMO is required to facilitate sessions.
       This will relieve her of the burden of facilitating, conducting medical
       interviews and responding to the requests for consultations. [A doctor]
       will be available to consult with all trainees who request as well as
       prescribe necessary prescriptions and order lab visits.

The inconsistent distribution of medication combined with a reluctance to contact the
PCMO could result in inadequate attention to a medical issue.


               We recommend:

               12. That the post provide additional support to the
                   PCMO.

               13. That the PCMO track Volunteers’ requests for
                   medications and the status of the requests.

               14. That the post monitor Volunteers’ satisfaction with
                   the distribution of medications.


MANAGEMENT CONTROLS

Another key objective of the post evaluation is to assess the post’s planning and oversight
of operations, staff management and training, relationships with headquarters offices, and
performance reporting.

In reviewing staff performance appraisals and the post’s relationship with headquarters
and the U.S. Embassy in Belize, the OIG found no significant areas of concern that would
warrant action by the post.


Final Program Evaluation Report: Peace Corps/Belize                                      14
Belize has recently been at the forefront of Volunteer performance reporting due in large
part to the development of excellent monitoring, reporting, and evaluation tools created
by the former PTO. We learned that the Belizean Ministry of Education has recently
expressed interest in adapting some of these tools for use in its national evaluation
process.

At the time of this evaluation PC/Belize had completed preparations to transition to the
agency’s new Volunteer Reporting Tool. The PTO is collaborating with OPATS
specialists and the region to determine if the VRT will completely replace the post’s
monitoring, reporting and evaluation tools.

Office morale in PC/Belize has improved.

Ninety-three percent of the Volunteers interviewed for this evaluation rate the leadership
support they receive favorably, with an average rating of 4.5 on a 5-point scale (1 = not at
all, 5 = very well). In interviews for this evaluation, staff reported significant
improvements following the arrival of the post’s current leadership. Some of the staff
comments included:

       “Since the turmoil things have significantly improved...it’s a drastic
       improvement.”

       “Things have gotten a thousand times better since the turmoil.”

       “The CD has done a great job of addressing the morale issues.”

These comments are notable because in November 2006, the OIG received letters of
complaint from staff and Volunteers regarding tensions between Belizean and American
staff and American staff and Volunteers. The evaluation found no evidence of lingering
tensions and a positive morale appears to have returned to PC/Belize.

Controlled substances were not stored according to Peace Corps policy.

PCM section 734, 3.6.1 states:

       Controlled substances must be kept in a bar-locked cabinet with a three-way
       combination lock. The filing cabinet must be placed in a locked room (such as a
       medical supply closet) within a locked office building. Any cabinet or safe used
       to store controlled substances that weighs less than 750 pounds must be bolted or
       cemented to the floor or wall in such a way that it cannot be easily removed.

Our observation of the medical area revealed that a small, easily-movable filing cabinet
used to store controlled substances was not bolted or cemented to the floor or wall in such
a way that it cannot be easily removed. Though the small filing cabinet was placed in a
lockable room, it was easily moved by one individual.




Final Program Evaluation Report: Peace Corps/Belize                                        15
               We recommend:

               15. That post secure the filing cabinet used to store
                   controlled substances to the floor or wall.


PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR)

The final objective of this post evaluation is to answer the question “to what extent is the
post able to adequately administer the PEPFAR program, support Volunteers, and meet
its PEPFAR objectives?” To answer this question, we evaluate:

   •   Whether post is implementing its PEPFAR objectives as laid out in
       the annual implementation plan.
   •   Relationships between the post and coordinating partners.
   •   Whether Volunteers are fulfilling HIV/AIDS-related assignments
       and handling related challenges.

Belize has the highest reported incidence of HIV/AIDS in Central America. PC/Belize
uses its PEPFAR funds to support HIV/AIDS education and awareness campaigns and to
facilitate outreach activities.

PC/Belize has a small PEPFAR budget in relation to most posts. Post leadership reported
that the staffing resources used to program, administer, and report PEPFAR activities
exceeded the post’s total PEPFAR funding allocation. The post’s principal PEPFAR
coordinator stated that approximately 15% of her duties were PEPFAR related. The post
reported that if their PEPFAR allocation increases they will require additional staffing
resources.

At the time of this evaluation, the post was on target to meet its annual PEPFAR
objectives. A number of Volunteers interviewed, particularly in the Youth Development
sector, were conducting HIV/AIDS education and prevention activities as primary and
secondary activities. PC/Belize did not know if their PEPFAR allocation would change.

Belize plans to join a regional Partnership Compact that will coordinate PEPFAR
activities in FY 2010, but it was not known if Belize would join the Caribbean Compact
or the Central American Compact.

The Office of AIDS Relief reported that there was no formal guidance regarding funding
thresholds for additional staff and that posts’ PEPFAR experiences were so varied that
one set answer would not work for all posts.




Final Program Evaluation Report: Peace Corps/Belize                                       16
                                 POST STAFFING
At the time of the field visit, PC/Belize had 18 staff positions. The positions included
three U.S. direct hire employees (USDH), two foreign service national (FSN), and 13
personal services contractors (PSC). The post also employs temporary staff / contractors
to assist with training. Given the time of the visit, these people were not on staff.
Thirteen staff were interviewed.

                                     PC/Belize Positions
                          Position                           Status      Interviewed
  Country Director                                         USDH               X
  Programming and Training Officer                         USDH               X
  Administrative Officer                                   USDH               X
  Safety and Security Coordinator                          PSC                X
  PCMO                                                     PSC                X
  Medical Clerk                                            PSC
  Executive Secretary                                      PSC
  IT Specialist                                            PSC                 X
  APCD/Healthy Communities & Education                     PSC                 X
  APCD/Youth & Business and Organizational Mgmt.           PSC                 X
  Training Director                                        PSC                 X
  Language & Cultural Coordinator                          PSC                 X
  Programming & Training Specialist                        PSC                 X
  Cashier                                                  FSN                 X
  Administrative Assistant                                 FSN                 X
  General Services Coordinator                             PSC
  Driver                                                   PSC
  Janitress                                                PSC




Final Program Evaluation Report: Peace Corps/Belize                                    17
                        INTERVIEWS CONDUCTED

As part of this post evaluation interviews were conducted with 16 Volunteers, 13 in-
country staff members, and 22 representatives from Peace Corps headquarters in DC, the
US Embassy in Belize, and key project partners.

                  Interviews Conducted with PC/Headquarters Staff,
                      Embassy Officials and Key Project Partners
                    Position                             Organization
   Regional Chief Administrative Officer     PC/Headquarters
   (Acting Regional Director)
   Regional Chief of Programming             PC/Headquarters
   Acting Regional Chief of Operations       PC/Headquarters
   Country Desk Officer                      PC/Headquarters
   Country Desk Assistant                    PC/Headquarters
   Safety & Security Desk Officer            PC/Headquarters
   AIDS Relief Coordinator                   PC/Headquarters
   OAR Administrative Officer                PC/Headquarters
   OPATS Programming & Training              PC/Headquarters
   Specialist
   OPATS Education/Youth Development         PC/Headquarters
   Program Specialist
   OPATS Training Specialist                 PC/Headquarters
   Chargé d’Affairs (Acting Ambassador)      U.S. Embassy in Belize
   Regional Security Officer                 U.S. Embassy in Belize
   Acting Political, Economic, Commercial U.S. Embassy in Belize
   and Public Affairs Section Chief
   Director Education Support Services       Belize Ministry of Education
   District Education Officer                Belize Ministry of Education
   Health & Family Life Education            Belize Ministry of Education
   Coordinator
   Principal                                 Big Falls School
   District Health Educator                  Belize Ministry of Health
   District Health Administrator             Belize Ministry of Health
   Program Manager                           National 4-H Youth Development
                                             Centre
   Project Director                          Youth Business Trust Belize




Final Program Evaluation Report: Peace Corps/Belize                                 18
                       LIST OF RECOMMENDATIONS

WE RECOMMEND:

1. That the post establish Project Advisory Committees for each project.

2. That post conduct a survey to identify the roles and traits of a productive counterpart
   and develop counterpart selection criteria.

3. That the post revise Volunteer Assignment Descriptions and the Welcome Book to
   clarify Volunteer work roles in the Belizean workplace.

4. That the post revise counterpart training materials to clarify Peace Corps’
   expectations of Volunteers’ role in the Belizean workplace.

5. That the post develop a policy that will ensure that the post’s housing criteria are met.

6. That the post increase support to rural Volunteers for language self-learning and
   tutoring.

7. That the country director ensure that post staff routinely review the accuracy of the
   Site Locator Forms.

8. That the post align Volunteer and staff expectations regarding site visits.

9. That programming staff notify Volunteers in advance of site visits.

10. That APCDs develop a working relationship with Trainees during PST.

11. That the programming and training officer monitor Volunteers’ satisfaction with the
    timing and quality of biannual report feedback.

12. That the post provide additional support to the PCMO.

13. That the PCMO track Volunteers’ requests for medications and the status of the
    requests.

14. That the post monitor Volunteers’ satisfaction with the distribution of medications.

15. That post secure the filing cabinet used to store controlled substances to the floor or
    wall.




Final Program Evaluation Report: Peace Corps/Belize                                           19
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
          Peace Corps Belize Response to Recommendations

                 Preliminary Program Evaluation Report

                 From the Office of the Inspector General

                                     July 2, 2009

1. That the post establish Project Advisory Committees for each project.

Concur. Post agrees that Project Advisory Committees are an important element of project
coordination, monitoring, evaluation, and formal feedback to Post management. They also
offer an excellent opportunity to model the use of this tool as a mechanism for host country
participation at the local level. Each of our four projects will have in place a Project
Advisory Committee prior to the arrival of our training cohort in FY 2010, i.e. mid-March
2010.
Proposed PAC Composition

3 - 1st year Volunteers
3 - 2nd year Volunteers
3-5 Counterpart Agency Representatives

To form the initial PACs, Volunteers will respond to an essay question and the PMs and PTO
will identify and interview the top three candidates. In subsequent years, current PAC
members will review essays and refer finalists to PM and PTO.

PMs will identify and invite counterpart agency representatives in consultation with PTO and
current PAC members. PMs will manage counterpart agency representative participation in
accordance with strategic direction of projects.

Proposed PAC Schedule

The formed PACs will meet quarterly, with counterpart agency representatives participating
biannually. This proposed schedule will be modified to meet the changing needs of each
project.

PAC Mission

The PAC Volunteers will coordinate with the PMs, PTOs, and counterpart agency
representatives to promote enhanced project outcomes through a more thorough
understanding between project actors and locally relevant, clear project strategic direction.
The specifics of this mission will be included in our PAC Handbook (under development).


Date of Completion: 31 Mar 2010
2. That the post conduct a survey to identify the roles and traits of a productive
   counterpart and develop counterpart selection criteria.

Concur. Post believes that focus groups vice written surveys are much more productive to
obtain Volunteer feedback, as this medium allows for a freer flow of ideas and information,
greater interaction between Volunteers and Staff facilitating the focus group, and a higher
degree of participation. Post will conduct focus groups on their perception of roles and traits
that encourage productive counterpart relationships. These focus groups will be carried out
during Monitoring, Reporting, and Evaluation meetings tentatively planned for August 10-11,
2009. Results of the focus groups will be evaluated and appropriate selection criteria will be
added to Post’s site development guidance prior to the beginning of site development for the
FY 2010 training cohort.
Phased implementation plan is as follows:
• Implementation of an expanded Counterpart Workshop Day (October 5, 2009)
• Changes to the counterpart handbook, specifically changing current language which
     encourages counterparts to treat Volunteers as employees (Prior to October 5, 2009)
• Implementation of “entry-into-site” and “one-year-in-site” events to increase the quality
     of collective interaction among Volunteers, counterparts, and staff. (October 2009)

Date of Completion: 30 Oct 2009


3. That the post revise Volunteer Assignment Descriptions and the Welcome Book to
   clarify Volunteer work roles in the Belizean workplace.

Concur. Post will modify all project VADs, the Welcome Book, and the talking points for
the pre-PST Trainee telephone call to address in a clear, consistent fashion the role of the
Volunteer in building and managing the work relationship. Post believes there are cultural
dynamics at work in the findings that support this recommendation and will help Volunteers
understand and manage these dynamics more successfully through a variety of training and
programming initiatives. These responses are being implemented immediately and will be
fully implemented (including VADs and Welcome Book) for the FY11 intake.

Date of Completion: May 15, 2010


4. That the post revise counterpart training materials to clarify Peace Corps’
   expectations of Volunteers’ role in the Belizean workplace.

Concur. Post will modify the Counterpart Handbook, relevant Counterpart Workshop
materials, and additional training and programming interventions/materials to establish a
clear, shared understanding of the Volunteer’s role in the workplace. In particular, Post will
change written and spoken guidance asking counterparts to treat Volunteers as employees.
New language will encourage counterparts to work with their Volunteers in establishing a
work relationship that enables the Volunteer to support the counterpart agency in meeting
clearly defined work tasks and desired outcomes. These responses are being implemented
immediately.

Date of Completion: Closed-documentation included.
5. That post develop a policy that will ensure that the post’s housing criteria are met.

Concur. Post will reducing the post-PST home stay from two to three months to only one
month. The Volunteers who participated in this focus group were unanimous in urging that
one-month home stays be required for all Volunteers. These home stays follow five-week
CBT home stays, and two-week in-site home stays for the end of PST.
Post will ensure established housing criteria are met for home stay housing both during the
Community-based Training (CBT) portion of PST and during the six-week period that
included the last two weeks of PST and the first month of service in site. Post will conduct
an expanded home stay family orientation (August 4 – 9, 2009 for CBT home stay families
and September 30, 2009 for in-site of assignment home stay families). Additionally, Post
will respond more promptly and aggressively to Volunteer home stay concerns.

In addition, at the end of PST in October 2008, there were communication “disconnects”
among Volunteers, home stay families, and Peace Corps Belize Staff associated with the shift
from Trainee to PCV status and the allowance structures for each versus the payment rates for
home stay families that had been negotiated. The Administrative Officer, Training Manager,
and other PST Staff will meet Wednesday July 8 to review the allowances and home stay
family rates to avoid last year’s miscommunications.

Date of Completion: 30 Sept 2009


6. That the post increase support to rural Volunteers for language self-learning
   and tutoring.

Concur. Post is pursuing a strategy of developing post-PST language ISTs for
Volunteers who wish to improve their language proficiency. Four of the five non-English
languages in Belize are non-written. This precludes the acquisition of adequate self-
learning materials. Small sites often severely limit the possibility of Volunteers finding
someone who can serve as an effective tutor. Therefore Post is pursuing relationships
with language instruction professionals at the University of Belize and cultural
institutions such as Tumul K’in to create progressive, post-PST language ISTs. Pilot
ISTs for Maya Mopan, K’ekchi, and Spanish were held in early June and received
unanimous praise from Volunteers. Post is seeking similar options for the Kriol and
Garifuna languages and will develop resources and continuing ISTs for all five non-
English languages spoken in Belize for implementation in FY 2010.

Date of Completion: 31 Jul 2010
7. That the country director ensure that post staff routinely review the accuracy of
   the Site Locator Forms.

Concur. The Site Locator Form (SLF) for Peace Corps Belize is in revision (see revised
version for review attached). This or a similar version will be approved by the Post
Management Team prior to the arrival of the next training cohort for PST (August 20,
2009). Each Volunteer will submit his or her first SLF for the initial home stay family
residence in his or her site of assignment prior to being sworn in. Each Volunteer will
complete his or her SLF for any new residence thereafter prior to final approval by the
Safety and Security Coordinator (SSC). The Volunteer will sign and date the SLF at
submission. It will then be reviewed by the Program Manager or Program and Training
Specialist for accuracy, who will sign and date the SLF. Final approval of any new
housing requires the SSC to verify the SLF, take the GPS coordinates, sign the SLF and
date it, and then send it through the Country Director to the Executive Assistant for
posting in VIDA.

Updated Site Locator Form included.

Date of Completion: 10 August 2009


8. That the post align Volunteer and staff expectations regarding site visits.

Concur. Post will develop site visit guidance using materials provided by IG Evaluator
Rueben Marshall that ensures mutual understanding about the nature and purpose of site
visits.

Date of Completion: 1 October, 2009.


9. That programming staff notify Volunteers in advance of site visits.

Concur. Programming and Training Staff will contact Volunteers directly to arrange
specific site visit dates and times.

Date of Completion: 1 October,, 2009.

10. That APCDs develop a working relationship with Trainees during PST.

Concur. Post Training Manager has integrated additional structured and unstructured
interaction between Program Managers and their Trainees during the forthcoming PST.

Date of Completion: 22 October, 2009.

In addition to these practical interventions, post PTO will work with Programming and
Training Staff and Trainees/Volunteers on the cultural and qualitative issues that
influence the effectiveness of site visits
Date of Completion: 31 Dec 2009


11. That the programming and training officer monitor Volunteers’ satisfaction with
    the timing and quality of biannual report feedback.

Concur. Post will implement a system using new Volunteer Reporting Tool (VRT) whereby
Volunteers can choose to receive written or verbal report feedback. If verbal feedback is
selected, relevant Program Manager will schedule a call or arrange for the discussion to take
place during a site visit. Verbal feedback (time, date, general details) will be documented
using new VRT, as will written feedback. Post’s PTO will seek Volunteer satisfaction with
updated biannual report feedback through VAC

    Date of Completion: 31 Dec 2009


12. That the post provide additional support to the PCMO.

Concur. Post will be taking several actions to support the PCMO as follows:
   • Dr. Peter Craig, whom Post has on contract to provide back-up and support to the
      PCMO, will be at Post on Fridays throughout PST when Trainees are in from their
      sites for full-group sessions, beginning September 4, 2009 .
   • This will be standard procedure during all PSTs. Ongoing
   • Dr. Craig will also be at Post at least one day per week, to provide additional support
      to the PCMO.
   • Effective June 2009, Dr. Craig will take the PCMO’s phone and provide full service
      to Volunteers one weekend per month under his current contract.
   • Post will also begin the search for an additional back-up/support medical professional
      with the beginning of FY 2010, in anticipation of additional TI.

    Date of Completion: 1 Oct 2009


13. That the PCMO track Volunteers’ requests for medications and the status of the
    requests.

Concur. Peace Corps Belize has a high percentage of Volunteers requiring special
medications, currently 35 of 53 Volunteers on our roster, with seven of these to complete
service this August. It is anticipated that the percentage will remain approximately the same
with the new TI.

There are several factors which complicate the management of this need and Volunteers’
expectations regarding medications at Post.
   • Few of these medications are taken by more than one PCV.
   • The supplier often sends stocks with short time-horizon expiration dates.
   • Just-in-time supply is occasionally disrupted by the failure to deliver, as is the case
        with two special medications not delivered in the shipment received at Post during
        the week of June 29th.
    •   Many of these medications require periodic monitoring of the patient, and the OMS
        guidance often requires more frequent monitoring by the PCMO than may have been
        required under treatment in the U.S.

The PCMO has established a hard copy log of the special medications requirements of all
Volunteers. We also are seeking a software application which allows the PCMO to carry out
this same tracking function, but which also includes the ability to run reports regarding stock
on hand versus projected need, and which includes tickler files to alert the PCMO to
upcoming dates for deliver of medications to Volunteers. The Executive Assistant will assist
the PCMO and the Medical Clerk with this system, either working through existing software
applications or with something new that is approved by the OMS and the CIO .

Date of Completion: 1 Oct 2009



14. That the post monitor Volunteers’ satisfaction with the distribution of medications.

   Concur. The Country Director will cover the topic of Volunteer satisfaction with PCMO
   services and communication with the PCMO, including distribution of medications, with
   the Volunteer Advisory Council at the next meeting August 7th. The Country Director
   will ask that Volunteers who have complaints regarding the PCMO to bring them to the
   CD’s attention immediately and directly. This will also become a regular part of the
   CD’s conversations with Trainees at the beginning of PST .

    Date of Completion: 21 Aug 2009


15. That post secure the filing cabinet used to store controlled substances to the floor or
    wall.

Concur. Post proposes an alternative for storage of controlled substances which is more
appropriate for Peace Corps Belize. Post has worked with the Embassy’s Regional Security
Officer (RSO) to obtain an excess property safe that will be large enough to secure both the
controlled substances and the Volunteers medical files in the PCMO’s office, rather than in
the Medical Clerk’s closet. Below is the RSO’s assessment from a July 1, 2009 e-mail. Note
that the RSO has made several inspections of the Peace Corps Office and given us verbal
guidelines to meet RSO requirements as Post transitions to occupying the full office building
from the previous ¾ of this building. The written report of his guidance is pending. This
transition will be completed July 2009.

“As I am not sure how PC developed a 750 pound standard for cabinets or safes, but that
appears to me to be a bit excessive. We use containers ranging from 250 pounds to 500
pounds for the storage of national security information.
Granted that those containers are secured in the embassy, it would seem to me that with the
upgrades we are working on for your facility would more than compensate for the need to
have a 750pd safe.
I have a 5 drawer Mosler with a SG8400 lock on it that would suffice for your needs. This
would provide enough space for controlled substances and medical records.
I believe, off-hand, that this safe weighs 500 pds – something which is highly unlikely to
walk out the door with the new alarm system (which would be alarmed into CAC 1 at the
embassy) and the 24/7 LGF officer. From my standpoint, notwithstanding PC regulations,
this would be sufficient to alleviate any security concerns.” RSO Robert Kelty, 7/1/2009.


The upgrades the RSO refers to here will be in place in Quarter 2 of FY 2010 and include
cameras monitored on-site by the Local Guard Force (LGF) 24 hours per day, an integrated
alarm system monitored at the central security station at the U.S. Embassy, upgraded doors
and compound entrance gate, and full heavy-gauge wire-mesh on all first floor windows and
doors. Post believes that this safe in the PCMO’s office imbedded within the newly upgraded
security system at our larger building provides greater security than bolting the present two-
drawer bar-lock file cabinet to the floor. The safe will be transferred from the RSO by
August 15, 2009.
APPENDIX B

                               OIG COMMENTS

Regional management concurred with all 15 recommendations. All recommendations
remain open pending confirmation from the chief compliance officer that the following
has been received:


       •   For recommendation number 1: documentation, such as meeting schedules,
           rosters, that shows that Project Advisory Committees have been established.

       •   For recommendation number 2: a copy of the focus group analysis; a copy of
           the revised site development guidance showing that counterpart selection
           criteria has been added.

       •   For recommendation number 3: copies of the revised Volunteer Assignment
           Descriptions and a copy of the revised Welcome Book showing that Volunteer
           work roles have been revised.

       •   For recommendation number 4: a copy of the revised counterpart
           workshop/training materials.

       •   For recommendation number 5: a copy of the revised post policy that provides
           assurance that housing criteria will be met.

       •   For recommendation number 6: documentation that verifies development of
           post-PST language resources, such as language in-service trainings.

       •   For recommendation number 7: documentation that the country director will
           ensure that post staff routinely review the accuracy of the Site Locator Forms.

       •   For recommendation number 8: documentation that shows site visit guidance
           aligns Volunteer and staff expectations regarding site visits.

       •   For recommendation number 9: a copy of the post’s guidance to programming
           staff that instructs them to notify Volunteers in advance of site visits.

       •   For recommendation number 10: documentation that shows integration of
           interactions with Program Managers during PST.

       •   For recommendation number 11: documentation that confirms the PTO has
           assessed Volunteer satisfaction with biannual report feedback.
APPENDIX B
       •   For recommendation number 12: documentation that shows additional medical
           support has been provided to the PCMO.

       •   For recommendation number 13: documentation that the post has implemented
           a system to track Volunteer requests for medication

       •   For recommendation number 14: documentation that the post has a feedback
           mechanism in place to determine Volunteer satisfaction with the distribution of
           medications.

       •   For recommendation number 15: confirmation that a 500 lb Mosler safe has
           been transferred to post by the RSO, per the region’s response.


In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the
impact.
APPENDIX C


              PROGRAM EVALUATION COMPLETION
                    AND OIG CONTACT

OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Susan Gasper,
                              Acting Assistant Inspector General for Evaluations and
                              Inspections, at sgasper@peacecorps.gov, or call (202)
                              692-2908.

STAFF                         This program evaluation was conducted under the
                              direction of Shelley Elbert, Former Assistant Inspector
ACKNOWLEDGEMENTS
                              General for Evaluations, and by Evaluator Reuben
                              Marshall.




FinalProgram Evaluation Report: Peace Corps/Ghana                                       1
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
